U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 18, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

California Trout & Trout Unlimited v. Hoopa Valley Tribe, et al.,
S.CtNo. 19-257

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 26,
2019, and placed on the docket on August 28, 2019. The government's response is due on
September 27, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 28, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0257
CALIFORNIA TROUT & TROUT UNLIMITED
HOOPA VALLEY TRIBE, ET AL.

ANDREW H. ERTESCHIK
POYNER SPRUILL LLP
P0 BOX 1801
RALEIGH, NC 27602
919-783-2895
AERTESCHIK@POYNERSPRUILL.COM
BRIAN JOHNSON
TROUT UNLIMITED
5950 DOYLE STREET
SUITE 2
EMERYVILLE, CA 94608
RICHARD ROOS-COLLINS
WATER & POWER LAW GROUP PC
2140 SHATTUCK AVENUE
SUITE 801
BERKELEY, CA 94704

